OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/PAKISTAN’S
LIVELIHOOD DEVELOPMENT
PROGRAM FOR THE LOWER
REGION OF THE FEDERALLY
ADMINISTERED TRIBAL AREAS
AUDIT REPORT NO. G-391-11-001-P
DECEMBER 10, 2010




Islamabad, Pakistan
Office of Inspector General

December 10, 2010

MEMORANDUM

TO:                  USAID/Pakistan Mission Director Acting, Denise Herbol

FROM:                Office of Inspector General/Pakistan Director, Steven H. Bernstein /s/

SUBJECT:             Audit of USAID/Pakistan’s Livelihood Development Program for the Lower
                     Region of the Federally Administered Tribal Areas
                     (Report No. G-391-11-001-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments and included your response in Appendix II.

The report contains seven recommendations to help the mission improve various aspects of the
program. On the basis of the information provided by the mission in response to the draft
report, we consider that management decisions have been taken on six recommendations, and
that a management decision is pending for one recommendation. Determinations of final action
will be made by the Audit Performance and Compliance Division on completion of the planned
corrective actions for all seven recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
American Embassy
Diplomatic Enclave
Ramna 5, Islamabad, Pakistan
www.usaid.govoig
CONTENTS
Summary of Results ................................................................................................. 1


Audit Findings........................................................................................................... 5

          Program’s Indicators, Targets and
          Goals Should Be Revisited ............................................................................ 5

          Monitoring and Oversight Needs Improvement .............................................. 6

          Guidance Needed for Security Collaboration
          With Partners ................................................................................................. 8

Evaluation of Management Comments................................................................ 10


Appendix I – Scope and Methodology .................................................................. 12


Appendix II – Management Comments ................................................................. 14


Appendix III – Map of Federally Administered Tribal Areas................................ 17


Appendix IV – Detailed Targets and Results ........................................................ 18
SUMMARY OF RESULTS
Located along Pakistan’s border with Afghanistan is a segment of rugged terrain stretching
some 450 kilometers. This mountainous land, known as the Federally Administered Tribal Areas
(FATA), is made up of seven political agencies and six smaller zones called frontier regions. On
three sides FATA is bounded by the provinces of Pakistan; the Durand Line, which separates
Pakistan from Afghanistan, forms FATA’s western border. (See map of FATA in Appendix III.)

FATA functions as a semiautonomous area within Pakistan. The Government of Pakistan
(GOP) administers FATA using political agents that interact with influential members of FATA
tribes. FATA is one of the most underdeveloped regions in Pakistan, where only 17 percent of
the overall population is literate and among women literacy is as low as 3. The vast majority of
the population (97 percent) resides in rural areas with nearly 60 percent of all houses built of
unbaked brick, earth, wood, or bamboo. While some people are involved in small-scale
commercial and industrial sectors, few livelihood opportunities exist, with most households
engaged in subsistence agriculture and livestock rearing.

FATA’s weak economy, widespread unemployment, lack of social services, and ineffective
government make it susceptible to the spread of extremism and foreign terrorist involvement.
According to USAID/Pakistan, countering extremist influences in FATA will require a robust
economic development program. In response to this need, USAID/Pakistan established the
FATA Livelihood Development Program (the program) to provide about $300 million over 5
years. To implement the program in the lower FATA region, 1 USAID/Pakistan signed a 5-year,
$150 million cooperative agreement with a U.S.-based nongovernmental organization in March
2008; as of March 31, 2010, the program had expended $30 million of the $48 million obligated.
Another U.S.-based nongovernmental organization was awarded $150 million to implement the
program in the upper FATA region.

The main goal of the program is to provide social and economic stabilization in FATA to counter
the growing influence of extremist and terrorist groups. To measure progress in attaining this
goal, the mission established outcome indicators and targets for the indicators. Target
outcomes for the conclusion of the program in March 2013 include:

•   40 million days of short-term employment, 26 million specifically for youth.
•   29,375 long-term jobs created, 19,094 of them for youth.
•   55 percent of FATA citizens expressing satisfaction with the basic public services delivered
    by the GOP.
•   50 percent of FATA citizens expressing tolerance of the GOP’s presence inside their
    territory.
•   50 percent of FATA citizens expressing the view that political administration has improved in
    their territory.
•   40 percent of infrastructure projects receiving at least 50 percent of their funding from the
    GOP.
•   65 percent of youth expressing satisfaction toward public policy decision makers.


1
  The program for lower FATA covers the agencies of Kurram, Orakzai, and North and South Waziristan,
as well as the frontier regions of Kohat, D.I. Khan, Tank, Bannu, and Lakki Marwat. The map in Appendix
III shows these locations.


                                                                                                     1
USAID’s Office of Inspector General in Pakistan (OIG/Pakistan) conducted this audit to
determine whether the Livelihood Development Program is achieving its main goal of social and
economic stabilization to counter the growing influence of extremist and terrorist groups in the
lower FATA region.

The audit found that USAID/Pakistan had made little progress in reaching annual targets that
were established to ensure that the program’s outcomes as noted above could be
accomplished. Table 1 highlights the program’s key activity indicators and targets with the
corresponding results for the first 2 years as reported to the mission by the implementing
partner. 2

                                 Table 1. Key Targets and Results

                                                                                    Result as a
                                              Target                Result
                                                                                    Percent of
             Activity Indicator           3/2008–3/2010*        3/2008–3/2010
                                                                                      Target
      Life skills training for youth            19,500               3,512              18
      Scholarships offered to youth              2,960                 566              19
      Infrastructure projects                      320                  48              15
      completed
      Enterprises established                     3,640                  31                1
      and/or strengthened
      Short-term jobs created                   50,660               3,692                 7
      Long-term jobs created                     2,922                 209                 7
     * Targets shown represent the total of first- and second-year targets.

It must be emphasized that the main cause for the program achieving so little was the hostile
environment in FATA. The implementing partner experienced kidnappings, harassments, and
the tragic assassination of its chief of party in November 2008; consequently, program activities
stopped for 6 months until security measures were improved and a new chief of party took
office. During this time, the implementing partner relocated its country office from Peshawar to
Islamabad.

Although the hostile situation led to the program’s lack of results, the mission did not ensure
adequate monitoring and oversight to achieve program goals. In addition, the program’s ability
to achieve planned results was hindered by a strategic shift in U.S. Government strategy and
the mission’s request to provide humanitarian assistance activities.

In September 2009, the U.S. Government’s strategy shifted toward greater involvement of
Pakistani organizations in implementing U.S. assistance programs. As a result, the mission
began to rethink its strategy of providing the bulk of its program assistance through U.S.-based
implementers. Consequently, the mission and the implementer jointly developed transition
plans that resulted in many planned activities being put on hold or cancelled. As a result of the
transition plan, the implementing partner noted that it changed its organizational structure,
reduced staff, and notified two of its consortium members that their subcontracts and
subagreements would be terminated in November 2009.



2
  See Appendix IV for a complete list of the activity indicators, targets, and results as reported by the
program’s implementing partner.


                                                                                                       2
The ability to achieve results was also complicated by mission officials directing the
implementing partner to carry out humanitarian assistance activities. Specifically, the mission
directed the implementer to (1) procure 10,000 non-food-item kits for emergency humanitarian
relief to distribute to internally displaced families affected by military operations in FATA, (2)
implement an early warning assessment program for internally displaced persons in the
neighboring province of Khyber Pakhtunkhwa, 3 and (3) purchase four fire trucks to be used at
camps for internally displaced persons. The audit is not making a determination as to the
appropriateness of providing such humanitarian assistance under this program; rather, the audit
is stating that requesting this assistance was a factor that caused the implementer to use
resources that otherwise would have been used for planned activities.

As a result of the setbacks and shifts in implementation, program funds were not used
efficiently. For example, according to the implementing partner, it expended $29.2 million in the
first 2 years of the program; however, only $7.6 million was spent on direct program activities,
$2.7 million of that going to humanitarian assistance activities. The remaining $21.6 million, or
74 percent, was spent on program support including labor, fringe benefits, consultants, travel,
security, and other operating and indirect costs. Table 2 presents a summary of program
expenditures.

                   Table 2. Summary of Livelihood Development Expenditures
                                  Through March 31, 2010

                     Expenditure Type                           As of
                                                                              Percent of
                                                              3/31/2010
                                                                                Total
                                                                  ($)
    Direct project                                              7,585,605          26
    Operations and program support                            21,642,643           74
    Total                                                     29,228,278          100


To improve program implementation, USAID/Pakistan should revisit the program’s indicators
and targets to ensure they are in line with overall program goals and that progress can be
measured (page 5); improve monitoring and oversight of the program (page 6); and collaborate
more closely with implementing partners regarding the security situation in FATA (page 8).

The report recommends that USAID/Pakistan:

•     Revise the implementer’s third-year implementation plan to establish ambitious, yet
      achievable, targets, outcomes, and goals, and modify the cooperative agreement to reflect
      these changes (page 6).

•     Develop and implement a plan to collect baseline data so that progress in achieving the
      program’s outcomes and goals can be measured throughout the remainder of the program
      (page 6).

•     Develop written procedures to document, track, and take corrective action on all deficiencies
      identified in reports by independent monitoring reviewers (page 7).



3
    Formerly known as North-West Frontier Province.


                                                                                                 3
•   Verify that material internal control weaknesses identified in the financial review are
    corrected, and document the results (page 7).

•   Make a management decision regarding the allowability of and recover, as appropriate,
    questioned costs of $767,841 ($432,482 ineligible and $335,359 unsupported) identified in
    the financial review and recover those costs determined to be unallowable (page 7).

•   Issue a mission order that establishes security standards to be used when reviewing
    implementing partners’ security plans and when collaborating with these partners throughout
    implementation (page 9).

•   Revisit the implementing partner’s approved request for additional security funding,
    document any adjustment needed, and make a written determination regarding the provision
    of funding (page 9).

Appendix I presents the audit scope and methodology, and USAID/Pakistan’s comments are
detailed in Appendix II.

The mission agreed with all of the report’s recommendations. On the basis of our evaluation of
the mission’s response to the draft report (page 10), OIG/Pakistan determined that management
decisions have been reached on six recommendations and that a management decision is
pending on one recommendation (page 10).




                                                                                             4
AUDIT FINDINGS
Program’s Indicators, Targets
and Goals Should Be Revisited
According to USAID’s Automated Directives System (ADS) Chapter 203, “Assessing and
Learning,” technical offices should set performance targets that are ambitious but can
realistically be achieved within the stated timeframe and with the available resources. 4 In
addition, USAID’s Performance Monitoring and Evaluation TIPS No. 6, “Selecting
Performance Indicators,” stipulates that performance indicators are at the heart of a
performance monitoring system—they define the data to be collected to measure progress and
enable actual results achieved over time to be compared with planned results. Setting
ambitious, yet achievable, targets is essential for the successful management and achievement
of planned results of foreign assistance programs. Targets help establish clear expectations for
USAID staff, implementing partners, and key stakeholders. In contrast, targets that are easily
achievable are not useful for management and reporting.

Contrary to this guidance, the program’s indicators and targets changed significantly during the
2-year period; consequently, they were not effective measures of performance. After failing to
make significant progress toward its first-year targets, the mission significantly revised or
cancelled second-year indicators and targets midway through this performance period. The
mission reduced many of the original targets so that they could be achieved easily, essentially
making the targets unrealistic and unuseful for management purposes.

Table 3 highlights the significant changes made to the program’s activity indicator targets. For
example, the target for providing life skills training for youth started at 13,500 youths during the
first year. This target eventually was revised to only 3,500 youths, 74 percent lower than the
original target. 5

                            Table 3. Summary of Changes to Targets

                                                                                   Additional
                                                           2nd        Revised
                                            1st Year                               Revision to
                                                           Year       2nd Year
          Activity Indicator                 Target                                 2nd Year
                                                          Target       Target
                                                                                     Target
Life skills training for youth                13,500       6,000       7,500         3,500
Scholarships offered to youth                  1,400       1,560         353           566
Infrastructure projects completed                199         121          80            41
Enterprises established/strengthened             217       3,423         242           151
Short-term jobs created                       46,850       3,810           0             0
Long-term jobs created                         1,697       1,225           0             0

The need to revise and cancel indicators and targets resulted from the causes noted on page
2—specifically, the deteriorating security situation in FATA, the strategy shift toward greater

4
 ADS 203.3.4.5.
5
  See Appendix IV for a complete list of the activity indicators, targets, and results as reported by the
program’s implementing partner.


                                                                                                       5
involvement of Pakistani organizations, and the mission’s request that the implementer do
humanitarian assistance work that was not directly related to achieving program goals. As a
result, the revised indicators and targets may no longer be sufficient to achieve the desired
outcomes. For example, whereas indicators and targets have been revised continually, the
program’s goal of achieving social and economic stabilization to counter the growing influence
of extremist and terrorist groups in lower FATA has not changed. See pages 1 and 2 for a list of
the outcomes USAID/Pakistan planned to achieve.

The program was not on schedule to accomplish desired outcomes. In addition to lowering
targets so that they no longer facilitate accomplishing program goals, the mission did not collect
baseline data to measure progress toward achieving the desired outcomes and goals. The lack
of baseline data undermines management decision making and hinders evaluation efforts. In
addition, the frequent changing of indicators and targets fails to provide clear expectations for
USAID/Pakistan staff, implementing partners, and key stakeholders. As a result of the changing
targets and the lack of baseline data, it is unclear whether the overall goal of the program can
be achieved when measured against the desired outcomes. To address the deficiencies, we
recommend the following:

       Recommendation 1. We recommend that USAID/Pakistan revise the
       implementer’s third-year implementation plan to establish ambitious yet
       achievable targets, outcomes, and goals, and modify the program’s cooperative
       agreement as required to reflect these changes.

       Recommendation 2. We recommend that USAID/Pakistan develop and
       implement a plan to collect baseline data so that progress in achieving the
       program’s outcomes and goals can be measured throughout the remainder of the
       program.

Monitoring and Oversight
Needs Improvement
ADS 596.3.1 stipulates that USAID managers and staff must develop and implement cost-
effective management controls for results-oriented management to reasonably ensure that
assets are safeguarded against loss and unauthorized use. Furthermore, ADS states that
management control activities must be both effective and efficient in accomplishing the
Agency’s control objectives. A key control activity is adequate documentation of internal control,
of which monitoring is a central component.

Because of security restrictions placed on U.S. personnel in FATA, USAID/Pakistan did not
perform onsite monitoring of the implementing partner’s activities.            To compensate,
USAID/Pakistan engaged a U.S.-based contractor working on another mission program to
perform onsite monitoring in May 2009, nearly 14 months after signing the cooperative
agreement. From June 2009 through April 2010, the contractor conducted 215 site visits
covering program activities. The audit found that 61 of the 215 site visit reports were marked
“urgent” and requested corrective action by mission officials. For example, the reports noted the
following deficiencies:




                                                                                                6
•     Flood protections were not built in accordance with design specifications.
•     Expansion of a school’s classrooms was abandoned because of delays in payments to
      subcontractors.
•     Inferior material and unskilled workers were used during construction.
•     Infrastructure work was not completed in accordance with specifications.

Mission officials stated that they discussed the monitoring reports and associated corrective
actions with the implementing partner; however, the mission did not follow up to ensure that the
corrective actions were taken.

In addition, the mission engaged an accounting firm to perform a financial review of the
implementer’s accounting and management system as a result of allegations of improper use of
funds during the program’s first year. The report, dated February 2010, identified three material
control weaknesses: ineffective monitoring, weak internal audit function, and poor financial
reporting. In addition, the report noted that the implementing partner had not established a
separate bank account for one of its subrecipients as required by USAID/Pakistan. Also, the
report noted that the implementing partner’s inventory management system needed
improvement. The report also questioned costs of approximately $767,841 ($432,482 ineligible
and $335,359 unsupported costs). USAID/Pakistan needs to make a determination on the
allowability of these costs and recover them as appropriate. The questioned costs included
approximately $188,000 that may have been the result of the misuse of funds for a cash-for-
work activity. Specifically, according to the report, USAID/Pakistan funded the purchase of 2.3
million trees for a reforestation project; however, only 1.2 million trees could be accounted for.
This issue is under investigation by the Office of Inspector General.

Despite the nature of the findings in the financial report, the mission did not verify that the
material internal control weaknesses identified were corrected, nor did the mission make a
determination on the questioned costs of $767,841. This occurred in part because the mission
did not develop procedures to document, track, and take corrective action on the deficiencies
identified by independent reviewers.

The onsite monitoring reports provide additional value to the management process when used
as feedback to refine and improve program activities. While routine monitoring is necessary to
verify compliance with award requirements, timely verification and validation are critical to
ensure that the program is working and technical managers are taking action to improve
implementation. Adequately documenting and tracking the corrective actions contained in the
reports can help USAID/Pakistan avoid poor-quality work and the potential misuse of funds and
achieve the program’s main goal. To address these issues, we recommend the following:

          Recommendation 3. We recommend that USAID/Pakistan develop written
          procedures to document, track, and take corrective action on all deficiencies
          identified in reports independent 6 monitoring reviewers.

          Recommendation 4. We recommend that USAID/Pakistan verify that the
          material internal control weaknesses identified in the financial review are
          corrected and document the results.

          Recommendation 5. We recommend that USAID/Pakistan make a management
          decision regarding the allowability of $767,841 in questioned costs ($432,482
6
    Independent monitoring reviewers can also be referred to as third-party contractors.


                                                                                                7
       ineligible and $335,359 unsupported) identified in the financial review and
       recover those costs determined to be unallowable.

Guidance Needed for Security
Collaboration with Partners
USAID/Pakistan’s Office of Safety and Security is responsible for providing a high level of
safety, security, and operational support to all USAID offices and personnel and mission
partners and grantees. 7 Best practices for carrying out this responsibility include adopting and
distributing common security standards for reviewing implementers’ security plans and providing
ongoing security collaboration. 8

The audit found that USAID/Pakistan did not provide the Office of Safety and Security guidance
on reviewing implementing partners’ security plans or on providing ongoing security to
implementing partners. USAID/Pakistan did not determine what security measures would be
appropriate to carry out activities in FATA. The cooperative agreement merely encouraged
recipients to obtain the latest Department of State travel advisory notices before traveling.

Further, the mission did not provide specific guidance for budgeting for security. The
cooperative agreement notes that the implementer is responsible for establishing a reasonable
level of personal security in view of the operating and security conditions in FATA. The
agreement states that the costs for such security measures should be realistic given the level of
threat in the performance location and provide for the level of security that the implementer
reasonably deems appropriate. The original security budget contained in the cooperative
agreement was less than $500,000 over 5 years, or 0.3 percent of the total $150 million
program budget. The mission did not provide guidance on whether the security budget of
$500,000 over 5 years was realistic.

By some accounts, Pakistan has become one of the most dangerous countries in the world for
humanitarian workers and volunteers. In fact, a review of the implementing partners’ quarterly
reports disclosed a number of incidents of detainments and harassment of program staff and
subcontractors. Less than 4.5 months into the first year of the program, the implementer’s chief
of party and his Pakistani colleague were assassinated. According to the implementer and
mission officials, the event devastated staff morale, severely disrupted the program, and
resulted in the immediate evacuation of senior staff to Islamabad. After the assassination in
November 2008, the program essentially came to a halt.

In response to the deteriorating security situation in Pakistan, USAID/Pakistan issued a mission
notice on February 12, 2009, asking all implementing partners to assess their security needs
and to submit security plan packages complete with an overall security plan and a request for
any funds needed to enhance security. The program’s implementing partner responded by
submitting a request for approximately $20 million to upgrade security services and equipment.
The mission approved the request on June 3, 2009; however, the audit noted that the
implementing partner never received any additional funding. According to implementing partner

7
  Solicitation 391-11-013.
8
  Saving Lives Together, published by the United Nations in November 2006, serves as a framework for
best security practices on security collaboration. Also, USAID’s Office of Foreign Disaster Assistance
refers to Operational Security Management in Violent Environments (HPN Good Practice Review 8,
written by Koenraad Van Brabant and published by the Humanitarian Practice Network at the Overseas
Development Institute in June 2000) as the “humanitarian security bible.”


                                                                                                    8
officials, they approached the mission on several occasions to discuss the status of the budget
modification; however, additional funding was never provided by USAID/Pakistan. According to
mission officials, budget considerations prevented funding the request when it was submitted,
and to date the mission has not revisited the request. USAID/Pakistan officials recognize the
need to develop best practices for security and noted that they are drafting written guidelines.
According to USAID/Pakistan officials, the security office is also hiring additional employees to
supplement the mission’s two permanent safety and security specialists.

USAID/Pakistan does not have standards to use in reviewing implementing partners’ security
plans to make sure they are generally well developed and are tailored to the area of
implementation. In addition, USAID/Pakistan’s implementing partner has already exceeded its
original $500,000 security budget, which was to cover the entire 5-year program. As of March
31, 2010, the implementing partner had spent over $800,000 to provide security, and the
mission had yet to provide additional funds to cover the implementer’s request to upgrade
security. Relying on the implementer to continue to use program funds for security may
jeopardize program results. Further, if USAID/Pakistan chooses to begin a more aggressive
branding strategy for activities implemented in FATA, security concerns will become even more
pressing. Therefore, we recommend the following:

       Recommendation 6. We recommend that USAID/Pakistan issue a mission order
       that establishes security standards to be used when reviewing implementers’
       security plans and when collaborating with implementing partners throughout
       implementation.

       Recommendation 7. We recommend that USAID/Pakistan revisit the
       implementing partner’s approved request for additional security funding,
       document any adjustments needed, and make a written determination regarding
       the provision of funding.




                                                                                               9
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft report, the mission agreed with all of the report’s recommendations.
On the basis of our evaluation of the mission’s response to the draft report, the Office of
Inspector General determined management decisions have been reached on six
recommendations, and that a management decision is pending on one recommendation. The
status of each of the seven recommendations is shown below.

Management decision—Recommendations 1, 2, 3, 4, 6, and 7.

No management decision—Recommendation 5.

Recommendation 1. The mission agreed with the recommendation and has issued two letters
to the implementer regarding Year 3 implementation. The mission also has reduced the scope
of this agreement as a result of budget realignment. The revised third-year implementation plan
directs the implementer to focus on new work activities in agriculture, agribusiness
development, and minerals and mining. The mission’s target date to modify the program’s
cooperative agreement is January 31, 2011.

Recommendation 2. The mission agreed with the recommendation and plans to develop and
implement a missionwide baseline data tracking system to measure program results. The
mission expects to complete this system by July 1, 2011.

Recommendation 3. The mission agreed with the recommendation. The mission plans to
develop written procedures for documenting, tracking, and taking action on deficiencies
identified in independent reports. The agreement officer’s technical representative will continue
to take the lead on tracking deficiencies and ensuring that they are corrected before payments
are made. The mission expects to develop procedures by February 28, 2011.

Recommendation 4. The mission agreed with the recommendation and plans to correct the
material internal control weaknesses identified in the financial review. The target date to
complete this plan is March 31, 2011.

Recommendation 5. The mission agreed with the recommendation and indicated it would
investigate the allowability of $767,841 in questioned costs ($432,482 ineligible and $335,539
unsupported) by February 28, 2011. A management decision can be reached after that date.

Recommendation 6. The mission agreed with the recommendation and is establishing a new
mission order to review security plans of implementing partners. The mission order will also
establish guidance on security procedures. The target date to issue the mission order is
January 31, 2011.

Recommendation 7. The mission agreed with the recommendation, and the request for
additional security funding will be revisited and reviewed in accordance with the new mission
order established in Recommendation 6. Once the mission order is established, the mission will



                                                                                              10
document any adjustments needed, and make a written determination regarding the provision of
funding. The target date to complete this action is February 28, 2011.

A determination of final actions for Recommendations 1, 2, 3, 4, 6, and 7 will be made by the
Audit Performance and Compliance Division on completion of the planned corrective actions.

The mission’s written comments on the draft report are included in their entirely as Appendix II
to this report.




                                                                                             11
                                                                                    Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether the Livelihood Development Program is
achieving its main goal of social and economic stabilization to counter the growing influence of
extremist and terrorist groups in lower Federally Administered Tribal Area (FATA). To
implement the program in lower FATA, USAID/Pakistan signed a 5-year, $150 million
cooperative agreement with a U.S.-based nongovernmental organization in March 2008. As of
March 31, 2010, cumulative obligations and expenditures under the program totaled
approximately $47.6 million and $29.9 million, respectively.

The audit covered March 2008 through March 2010 and addressed the activities implemented
under the program. To answer the audit objective, we reviewed mission documentation related
to managing and monitoring the program, country operational plans, performance management
plans, implementing partner agreements, performance measures, actual performance results,
certifications required under the Federal Managers’ Financial Integrity Act of 1982, financial
reports, data quality assessments, and site visit and monitoring reports prepared by
independent U.S. contractors. We also interviewed mission officials, implementing partners, and
host government officials. We reviewed and compared plan targets with reported results.

We reviewed applicable laws and regulations as well as USAID policies and procedures
pertaining to USAID/Pakistan’s program: certifications required by the Federal Managers’
Financial Integrity Act of 1982; Automated Directives System Chapters 202, 203, and 596; and
supplemental guidance. The audit relied on the following sources of evidence: reviews of
Agency policies, internal controls, prior audits, and contracts; interviews with and information
requested from implementing partners and USAID/Pakistan officials. Audit fieldwork was
performed at the USAID/Pakistan mission and the implementer’s main program office in
Islamabad from May 26 through July 26, 2010.

In planning and performing the audit, the audit team assessed relevant controls used by the
mission to manage the program and ensure that its implementer was providing adequate
oversight of program activities. These controls included maintaining regular contact with the
implementer and reviewing quarterly progress reports. These reports provided a narrative
overview of the status of activities in lower FATA, including significant issues and new
developments. Additionally, the auditors examined the mission’s FY 2009 self-assessment of
management controls, which the mission is required to perform to comply with the Federal
Managers’ Financial Integrity Act of 1982, to check whether the assessment cited any relevant
weaknesses.




                                                                                             12
                                                                                      Appendix I


Methodology
To determine whether the program was achieving its main goals, the audit team initially
interviewed staff at USAID/Pakistan and the implementer’s main country office to gain an
understanding of the program, the key players and their roles and responsibilities, and the
reporting procedures and controls for monitoring the program.

The audit evaluated whether the indicators used by the program are sufficiently results-oriented
to permit their use in answering the audit objective. Through discussions with USAID/Pakistan
officials and implementing partners, the auditors gained an understanding of (1) how the
indicators are defined and computed, (2) the data sources utilized, and (3) the flow of data from
the implementing partner’s performance reports to its inclusion in their quarterly and annual
reports. In validating the results reported under the program, the auditors checked key reported
results against supporting data in a database maintained by the implementer. To test the
accuracy of the data in this database and verify the number of reported beneficiaries, the
auditors checked the data against supporting documentation. Similar but more limited testing
was done for certain other activities, such as cash for work and training.

In addition, the audit performed the following detailed tests:

•   In validating the 566 scholarships (valued at $820,008) offered to youths under Component
    1, the audit team reviewed a judgmentally selected sample of 15 scholarship vouchers paid
    during October 2008 and April 2009 totaling $50,699 and $22,573, respectively. To validate
    the 15 vouchers, the audit team examined the bank payment voucher, a copy of the check,
    agreements with the recipient university, a listing of students, the posting to the general
    ledger, and bank statements.

•   In validating the reported results for the 48 completed infrastructure activities in the lower
    FATA area under Component 2, the audit reviewed a sample of 18 out of 50 total vouchers
    pertaining to 9 (19 percent) of the 48 completed infrastructure activities. The scope of this
    testing focused on examining the supporting records, and reviewing the internal controls for
    verifying the completion of the activities.

In assessing the status of the activities being carried out during the program’s first and second
years of operation, the auditors relied primarily on the implementer’s quarterly progress reports
from March 2008 through March 2010, supplemented by interviews conducted with
USAID/Pakistan and implementing partner staff regarding specific implementation problems
reflected in these reports. The audit also included a review of applicable procedural guidance,
including detailed flow charts, relating to the management of specific program components.

To categorize the results, the auditors established a materiality threshold of 80 percent, based
partly on the challenging environment in which the program was operating. For example, if the
implementer achieved at least 80 percent of its target for an activity, the auditors concluded that
the activity was contributing to the program’s outcomes and goals. Because the samples
selected for substantive testing were judgmental, the results were not projected to the total
population. However, because the mission itself reported minimal progress in achieving the
program’s targets, we believe that our substantive testing was sufficient to support the
conclusion that little progress was made in reaching the program’s outcome and goals.




                                                                                                13
                                                                           Appendix II



MANAGEMENT COMMENTS


MEMORANDUM

Date:         November 29, 2010

To:           Steven Bernstein
              OIG/Pakistan

From:         Denise Herbol
              Mission Director (A) /s/

Subject:      Management Comments
              Audit of USAID/Pakistan’s Livelihood Development Program for the
              Lower Regions of the Federally Administered Tribal Areas
              (Report No. G-391-11-00X-P)

Reference:    Steven H. Bernstein’s memo dated October 18, 2010

In response to the referred memo, please find below the management comments on the
seven recommendations included therein:

Recommendation No 1: We recommend that USAID/Pakistan revise the
implementer’s third-year implementation plan to establish ambitious yet
achievable targets, outcomes and goals, and modify the program’s cooperative
agreement as required to reflect these changes.

Management Comments:
Mission management concurs with this recommendation. The Office of Acquisition and
Assistance (Pakistan) has issued two letters to [Redacted per FOIA Ex. 2] regarding
year three implementation. It is important to note the scope of this agreement has been
reduced due to budget realignment. USAID/Pakistan has eliminated the need for
[Redacted per FOIA Ex. 2] to continue previously funded literacy and infrastructure
programs. [Redacted per FOIA Ex. 2] has been directed to focus on new work activities
in the areas of agriculture, agribusiness development, minerals and mining during Year
Three Implementation. A modification will be issued by January 31, 2011 to incorporate
this new guidance.


Recommendation No 2: We recommend that USAID/Pakistan develop and
implement a plan to collect baseline data so that progress in achieving the



                                                                                    14
                                                                              Appendix II

program’s outcomes and goals can be measured throughout the remainder of the
program.

Management Comments
Mission management concurs with this recommendation. The OAA will work with the
technical team to collect baseline data of the program. Also USAID, led by the Program
Office, will launch an in-house monitoring database. This system, called PakInfo, is a
web-based database that will track key indicators inputted by partners according to their
agreed-upon PMPs. It will also track indicators geographically. The database will be
launched in February 2011. More importantly, the mission is in the process of procuring
new Monitoring & Evaluation (M&E) services. The new M&E contract will not only
incorporate the PakInfo database, but will also offer more comprehensive M&E
monitoring abilities for the mission as a whole. These additional M&E requirements will
be incorporated into all new and existing agreements and contracts for bilateral
modification by July 2011. The COTR will establish a schedule for the vendor to collect
the necessary baseline data. The mission expects to have this completed by July 1,
2011.

Recommendation No 3: We recommend that USAID/Pakistan develop written
procedures to document, track, and take corrective action on all deficiencies
identified in reports by independent monitoring reviewers.

Management Comments
Mission management concurs with this recommendation. USAID, led by the Program
Office, will develop written procedures for documenting, tracking, and taking action on all
deficiencies identified in such reports. The AOTR/COTR will continue to take the lead
on tracking noted deficiencies and ensuring that they are corrected before payments are
made to subcontractors. The mission expects to have the procedures completed and
implemented by February 28, 2011.

Recommendation No 4: We recommend that USAID/Pakistan verify that the
material internal control weaknesses identified in the financial review are
corrected and document the results.

Management Comments
Mission Management concurs with this recommendation. The Office of Acquisition and
Assistance, along with the technical office and Office of Financial Management, will
devise a plan to correct the material internal control weaknesses identified in the
financial review. The findings will be made available to the OIG on March 31, 2011

Recommendation No 5: We recommend that USAID/Pakistan make a management
decision regarding the allowability of $767,841 of questioned costs ($432,482
ineligible and $335,539 unsupported) identified in the financial review and recover
those costs determined to be unallowable.

Management Comments
Mission management concurs with this recommendation. The Office of Acquisition and
Assistance will work in collaboration with the Office of Financial management and
technical offices to investigate the allowability of the questioned costs by February 28,
2011.



                                                                                        15
                                                                           Appendix II

Recommendation No 6: We recommend that USAID/Pakistan issue a mission
order that establishes security standards to be used when reviewing
implementers’ security plans and when collaborating with implementing partners
throughout implementation.

Management Comments
Mission management concurs with this recommendation. MISSION ORDER – 300 .3,
Submission and Review of Security Plans of Implementing Partners, is currently being
reviewed and will be solicited for mission approval shortly. This Mission Order will
establish security guidance procedures for implementing partners. This Mission Order
will be issued by January 31, 2011.

Recommendation No 7: We recommend that USAID/Pakistan revisit the
implementing partner’s approved request for additional security funding,
document any adjustments needed, and make a written determination regarding
the provision of funding.

Management Comments
Mission management concurs with this recommendation. The request for additional
security funding will be revisited and reviewed in accordance with mission order - 300.3
and any adjustments needed will be documented. This will be completed by February
28, 2011.




                                                                                     16
                                                                          Appendix III


Map of Pakistan’s FATA




Sources: Government Accountability Office and USAID

The boundaries, names, and spellings used on this map do not imply official endorsement
or acceptance by the U.S. Government. The cooperative agreement provided for
implementation of program activities in the following geographic areas: FATA Agencies
Kurrum, Orakzai, North and South Waziristan; Frontier Regions Kohat, D.I. Khan, Tank,
Bannu, and Lakki Marwat. These areas within FATA were referred to as lower FATA for the
purposes of this program.




                                                                                17
                                                                                                                         Appendix IV


                                                  Detailed Indicators, Targets, and Results

                                                                                                 Revised
                                                 Year One   Year One    Year Two   Transition                Year Two     Direct
    Component             Indicator                                                             Transition
                                                  Target     Result      Target      Target                   Result     Expense
                                                                                                  Target

COMPONENT 1

1.1 Development      Vocational school
                                             N/A            N/A        1           Cancelled    Cancelled    Cancelled
training for youth   developed
                     Vocational
                                             50             0          20          Cancelled    Cancelled    Cancelled
                     teachers trained
                     Vocational
                     institutes              N/A            N/A        2           Cancelled    Cancelled    Cancelled
                     rehabilitated
                     New institutional
                                             9              0          Cancelled   Cancelled    Cancelled    Cancelled
                     committees piloted
                     Technical institutes
                                             3              0          Cancelled   Cancelled    Cancelled    Cancelled     $2,453
                     rehabilitated
                     Women’s skills
                     centers                 6              0          Cancelled   Cancelled    Cancelled    Cancelled
                     rehabilitated
                     Vocational centers
                     delivering training     9              0          Cancelled   Cancelled    Cancelled    Cancelled
                     established
1.2 Life skills,
                     Practical life skills
literacy, and                                13,500         0          6,000       7,500        3,500        3,512       $203,580
                     training delivered
numeracy
                     Youths given skills
                     needed for
                                             N/A            N/A        2,425       Cancelled    Cancelled    Cancelled
                     livelihood
                     opportunities
                     Master trainers
                                             90             0          20          Cancelled    Cancelled    Cancelled
                     trained

1.3 Scholarships,    Higher education
apprenticeships,     scholarships            250            163        760         149          163          0           $441,328
and career           offered to youth
counseling



                                                                                                                                    18
                                                                                                                     Appendix IV

                                                                                            Revised
                                            Year One   Year One    Year Two   Transition                Year Two      Direct
   Component           Indicator                                                           Transition
                                             Target     Result      Target      Target                   Result      Expense
                                                                                             Target
                   Technical and
                   vocational
                                        1,150          303        800         204          403          100         $378,680
                   scholarships
                   offered to youth
                   Youths provided
                   with access to       70%            0%         980         353          320          285         $112,871
                   career counseling
                   Apprenticeships
                                        250            0          400         200          Cancelled    Cancelled     $6,569
                   offered to youth
                   Job market survey
                                        N/A            N/A        Cancelled   Cancelled    Cancelled    Cancelled     $6,854
                   conducted
                   Youth groups
1.4 Youth civic    established to
                                        1              0          4           4            4            Cancelled
engagement         support tribal
                   networks
                   Youth action
                                        60             0          50          24           24           24          $171,645
                   grants disbursed

Total Direct Project Expenditures – Component 1                                                                     $1,323,980


COMPONENT 2

2.1 Improved
delivery of
education          Projects completed   84             0          65          52           31           38          $2,224,679
infrastructure
and services
                   Short-term
                   (unskilled) jobs     1,530          0          2,865       N/A          N/A          N/A
                   created
                   Skilled jobs
                                        N/A            N/A        281         N/A          N/A          N/A
                   created
                   Employment days
                                        N/A            N/A        N/A         209,158      31,221       N/A
                   generated
                   Health facilities
                                        N/A            N/A        N/A         13           Cancelled    N/A
                   equipped


                                                                                                                                 19
                                                                                                                         Appendix IV

                                                                                                Revised
                                                Year One   Year One    Year Two   Transition                Year Two      Direct
   Component              Indicator                                                            Transition
                                                 Target     Result      Target      Target                   Result      Expense
                                                                                                 Target
2.2 Improved
delivery of health
                     Projects completed     55             0           16         28           10           10          $333,912
infrastructure
and services
                     Short-term
                     (unskilled) jobs       18,165         0           571        N/A          N/A          N/A
                     created
                     Skilled jobs
                                            N/A            N/A         56         N/A          N/A          N/A
                     created
                     Employment days
                                            N/A            N/A         N/A        69,152       8,234        N/A
                     generated
2.3 Improved
delivery of social   Projects completed     37             0           40         Cancelled    Cancelled    Cancelled
infrastructure
                     Short-term
                     (unskilled) jobs       16,043         0           374        N/A          N/A          N/A
                     created
                     Skilled jobs
                                            N/A            N/A         23         N/A          N/A          N/A
                     created
Cash for Work        Trees planted          2,000,000      1,200,000   N/A        N/A          N/A          N/A         $535,223
                     Acres covered          4,000          2,570       N/A        N/A          N/A          N/A
                     Rural infrastructure
                     schemes                23             0           N/A        N/A          N/A          N/A
                     completed
                     Short-term jobs
                                            10,203         3,692       N/A        N/A          N/A          N/A
                     created
                     Long-term jobs
                                            105            29          N/A        N/A          N/A          N/A
                     created
                     Water resource
                                            1              0           N/A        N/A          N/A          N/A
                     study done
                     Immediate needs
Other Activity       of the internally            N/A      N/A                                                          $2,733,102
                     displaced met

Total Direct Project Expenditures – Component 2                                                                         $5,826,916




                                                                                                                                     20
                                                                                                                          Appendix IV

                                                                                                Revised
                                           Year One   Year One    Year Two      Transition                    Year Two     Direct
   Component            Indicator                                                              Transition
                                            Target     Result      Target         Target                       Result     Expense
                                                                                                 Target

COMPONENT 3

3.1 Microenter-
prises – milk
collection,
livestock breed     Enterprises
                                          217         31         532            Cancelled      Cancelled      Cancelled
improvement,        established
honey
production, dairy
herd grants
                    Permanent jobs
                                          651         1          865            Cancelled      Cancelled      Cancelled
                    created
                    Income/sales
                                          N/A         N/A        20-40%         Cancelled      Cancelled      Cancelled
                    increased
                    Grants disbursed      217         0          Cancelled      Cancelled      Cancelled      Cancelled
                    Skilled youths
                    trained in business   117         0          Cancelled      Cancelled      Cancelled      Cancelled
                    management
                    Households
                                          N/A         N/A        N/A            3,200          722            722         $188,809
                    benefited
                    Furniture
3.2 Value-chain
                    enterprises           N/A         0          345-365                       92             N/A          $62,712
development
                    established
                    Permanent jobs
                                          600         0          N/A            Cancelled      Cancelled      Cancelled
                    created
                    Sector revenue
                                          4.5%        0%         N/A                           Cancelled      Cancelled
                    increases                                                   Cancelled
                    Employment                                   See page       See page       See page
                                          N/A         N/A                                                     N/A
                    generated                                    21, last row   21, last row   21, last row
                    Income/sales
                                          20%         0%         35%            25%            25%            N/A
                    increased
                    Gems/jewelry
                    enterprises           N/A         N/A        600-650        55             14             N/A
                    established



                                                                                                                                     21
                                                                                                                       Appendix IV

                                                                                              Revised
                                        Year One   Year One    Year Two      Transition                    Year Two     Direct
   Component          Indicator                                                              Transition
                                         Target     Result      Target         Target                       Result     Expense
                                                                                               Target
                  Employment                                  See page       See page       See page
                                       N/A         N/A                                                     N/A
                  generated                                   21, last row   21, last row   21, last row
                  Income/sales
                                       35%         0%         35%            25%            25%            N/A
                  increased
                  Marble enterprises
                                       N/A         N/A        500            65             35             N/A         $24,402
                  established
                  Employment                                  See page       See page       See page
                                       N/A         N/A                                                     N/A
                  generated                                   21, last row   21, last row   21, last row
                  Income/sales
                                       15%         0%         35%            25%            25%
                  increased
                  Leather
                  enterprises          N/A         N/A        671            70             10             N/A         $12,218
                  established
                  Leather
                                                              See page       See page       See page
                  employment           N/A         N/A                                                     N/A
                                                              21, last row   21, last row   21, last row
                  generated
                  Leather
                  income/sales         N/A         N/A        25-30%         20%            20%            N/A
                  increased
                  Minerals
                  enterprises          N/A         N/A        TBD            TBD            TBD            TBD
                  established
                  Employment
                                       N/A         N/A        TBD            TBD            TBD            TBD
                  generated
                  Income/sales
                                       N/A         0%         TBD            TBD            TBD            TBD
                  increased
3.3 Value-chain   Livestock
development –     enterprises          N/A         N/A        654            Cancelled      Cancelled      Cancelled
Agriculture       established
                  Short-term jobs
                                       909         0          N/A            Cancelled      Cancelled      Cancelled
                  created
                  Permanent jobs
                                       341         0          N/A            Cancelled      Cancelled      Cancelled
                  created
                  Households
                  benefited            875         0          N/A            Cancelled      Cancelled      Cancelled




                                                                                                                                 22
                                                                                                                                                                 Appendix IV

                                                                                                                              Revised
                                                        Year One       Year One          Year Two         Transition                          Year Two           Direct
    Component                   Indicator                                                                                    Transition
                                                         Target         Result            Target            Target                             Result           Expense
                                                                                                                               Target
                          Employment                                                   See page          See page
                                                    N/A                N/A                                                  Cancelled         Cancelled
                          generated                                                    21, last row      21, last row
                          Income/sales
                                                    N/A                N/A             50-80%            Cancelled          Cancelled         Cancelled
                          increased
                          Horticultural
                          enterprises               N/A                N/A             95                30                 Cancelled         Cancelled
                          established
                          Employment                                                   See page          See page
                                                    N/A                N/A                                                  Cancelled         Cancelled
                          generated                                                    21, last row      21, last row
                          Income/sales
                                                    N/A                N/A             30-100%           30%                Cancelled         Cancelled
                          increased
                          Small poultry
                          enterprises               N/A                N/A             26                Cancelled          Cancelled         Cancelled
                          established
                          Employment                                                   See page          See page
                                                    N/A                N/A                                                  Cancelled         Cancelled
                          generated                                                    21, last row      21, last row
                          Income/sales
                                                    N/A                N/A             30-100%           Cancelled          Cancelled         Cancelled
                          increased
                          Agricultural trade
3.4 Agricultural                                    1                  0               Cancelled         Cancelled          Cancelled         Cancelled
                          fairs held
All sector results
                          Training delivered,
for training and                                    N/A                N/A             N/A               325                230               282              $146,568
                          all sectors
employment
                          Employment
                          generated, all            N/A                N/A             3,094             348                188               179
                          sectors

Total Direct Project Expenditures – Component 3                                                                                                                $434,709


Notes: Year 1 targets from Implementation Plan dated June 27, 2008, and from Implementation Plan – Year One dated February 20, 2009; Year 1 results per Annual Report dated
April 15, 2009, and from Implementation Plan – Year One dated February 20, 2009; Year 2 targets from Implementation Plan dated March 31, 2009; transition targets and revised
transition targets taken from Year Two Implementation Plan – Updated March 2010; Year 2 results from Annual Report dated April 30, 2010; direct project expenses as reported by
implementer directly to auditors.




                                                                                                                                                                                  23
                                                                                                Appendix IV


Summary of Livelihood Development Expenditures through March 31, 2010

                                               As of 3/31/2010
  Expenditure Type                                                           Percent of Total
                                                     ($)


  Direct Project*                                    7,585,605                     26


  Operations and Program Support                    21,642,673                     74


  Total                                             29,228,278                    100


* Direct project expenses as reported by implementer directly to auditors.




                                                                                                        24
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202- 712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
